November 20, 2009

JOSEPH MOELLER
MANAGER, REGULATORY REPORTING AND COST ANALYSIS

SUBJECT: Audit Report – Statistical Tests for Fiscal Year 2009 –
         Cost and Revenue Analysis (Report Number FF-AR-10-015)

This report presents the results of our audit of the statistical tests for fiscal year (FY)
2009 (Project Number 09BD003FF000). The objective of our audit was to determine
whether the Postal Service conducted statistical Origin-Destination Information System-
Revenue, Pieces, and Weight (ODIS-RPW) tests to collect cost, revenue, and volume
data in accordance with established policies and procedures. We reviewed tests of the
ODIS-RPW and conducted this work in support of the audit of the U.S. Postal Service’s
financial statements.1 Appendix A presents additional information about this audit.

Conclusion

The Postal Service generally conducted ODIS-RPW tests in accordance with
established data collection policies and procedures. However, we identified 30 errors in
16 of 63 tests observed.2 In this report, we discuss in detail only the most frequent type
of test errors, which we define as those that occurred in at least 5 percent of the tests
observed. We identified three types of test errors that accounted for 25 of the 30 errors.
In addition to the test errors, data collectors in four districts did not follow procedures for
protecting data collection equipment. Our findings indicate continued noncompliance
with prescribed policies and procedures from conditions previously reported in our FY
2008,3 2007,4 and 20065 reports.




1
  This report does not present the results of audit work required under the Postal Accountability and Enhancement
Act of 2006 (Postal Act of 2006).
2
  These errors occurred in eight of the 13 districts reviewed.
3
  Audit of Statistical Tests for Fiscal Year 2008 – Cost and Revenue Analysis (Report Number FF-AR-09-024, dated
November 24, 2008).
4
  Audit of Statistical Tests for Fiscal Year 2007 – Cost and Revenue Analysis (Report Number FF-AR-08-084, dated
January 30, 2008).
5
  Audit of Statistical Tests for Fiscal Year 2006 – Cost and Revenue Analysis (Report Number FF-AR-07-093, dated
February 16, 2007).
Statistical Tests for Fiscal Year 2009 –                                                          FF-AR-10-015
 Cost and Revenue Analysis


Test Errors

The most frequent type of test errors identified included data collectors not:

       Following procedures to determine the appropriate random start and mailpiece
        and/or container skip intervals in four districts (12 errors).

       Verifying information keyed into the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxx laptop in four districts (nine errors).

       Using marking slips to identify mail being tested in three districts (four errors).

When data collectors do not follow ODIS-RPW test procedures, there is an increased
risk of jeopardizing the Postal Service’s ability to accurately estimate revenue and mail
volume.

The first two types of test errors listed above were repeat findings from FY 2008.6 In
response to that report, the Postal Service stated that, by January 2009, they would
instruct their districts’ statistical programs personnel to reinforce these procedures
during their quarterly training sessions. Additionally, on February 27, 2009,
management issued a directive to each district stating all managers of Statistical
Programs were required to reinforce data collection procedures on U.S. Postal Service
Office of Inspector General (OIG’s) FY 2008 findings. The OIG noted the FY 2009
errors before the districts had conducted their quarterly training sessions. Therefore,
we are not making a recommendation to address the first two issues at this time. We
will continue to monitor these issues during our FY 2010 financial statement audit.

See Appendix B for a detailed analysis of our findings, including our observations and
testing errors by district and a comparative discussion of the conditions reported in our
FY 2008 and 2007 audit reports.

We recommend the manager, Regulatory Reporting and Cost Analysis:

1. Direct managers of Statistical Programs to reinforce through training procedures to
   ensure data collectors use marking slips to identify test mail during
   Origin-Destination Information System-Revenue, Pieces, and Weight tests.

Management’s Comments

Management agreed with our finding and recommendation and will instruct district
managers, Statistical Programs, by January 8, 2010, to reinforce the proper procedures


6
 Audit of Statistical Tests for Fiscal Year 2008 – Cost and Revenue Analysis (Report Number FF-AR-09-024, dated
November 24, 2008).




                                                       2
Statistical Tests for Fiscal Year 2009 –                                                           FF-AR-10-015
 Cost and Revenue Analysis


for using marking slips to identify test mail during ODIS-RPW tests. See Appendix C for
management’s comments in their entirety.

Protecting Data Collection Equipment

We observed data collectors in four districts not associated with any specific tests who
did not always follow procedures for protecting data collection equipment. Specifically,
in 10 instances, data collectors did not place xxxxx laptops into hibernation mode or
lock the keyboard when their laptops were unattended (eight instances occurred in two
districts). Data collectors must preserve the integrity of test data by placing their laptops
in hibernation mode or locking keyboards when laptops are unattended.7 Generally,
data collectors stated they were unaware of the requirements for protecting CODES
laptops. However, we noted that all but one of these data collectors each had at least 3
years of experience. This is a repeat finding from the prior 3 fiscal years. As part of the
corrective action taken, headquarters issued a directive informing district management
of actions required for data and laptop security on December 21, 2006. In addition, on
March 4, 2008, headquarters directed district management to reinforce procedures for
protecting xxxxx laptops through quarterly training. In FY 2008, the OIG did not provide
a recommendation to monitor the corrective action during FY 2009 observations.
However, it is apparent that corrective action headquarters has taken has not been
effective.

We recommend the manager, Regulatory Reporting and Cost Analysis:

2. Develop national training on protecting data collection equipment for districts to use
   to train data collectors.

3. Direct managers of Statistical Programs to certify that all data collectors have
   participated in the national training on protecting data collection equipment.

Management’s Comments

Management agreed with our finding and recommendations and will issue a national
training module on protecting data collection equipment by February 5, 2010. In
addition, by February 2, 2010, management will direct managers of Statistical Programs
to certify that all data collectors have completed this national training module by the end
of Quarter 3, FY 2010.




7
 Handbook F-75, Data Collection User's Guide for Revenue, Volume, and Performance Measurement System,
Appendix G-7 (Section IV.F), October 2003; Handbook F-85, Data Collection User’s Guide for International Revenue,
Volume, and Performance Measurement Systems, Appendix B, Section IV, page B-9; and Statistical Programs Letter
#6, FY 2008, Administration.




                                                        3
Statistical Tests for Fiscal Year 2009 –                                      FF-AR-10-015
 Cost and Revenue Analysis


Evaluation of Management’s Comments

The OIG considers management’s comments to recommendations 1 through 3
responsive and management’s corrective actions should resolve the issues identified in
the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, director,
Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc:     Joseph Corbett
        Vincent H. DeVito, Jr.
        Ronald J. Poland
        Douglas G. Germer
        Bill Harris




                                            4
Statistical Tests for Fiscal Year 2009 –                                                FF-AR-10-015
 Cost and Revenue Analysis


                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Act of 2006 divided Postal Service products into two categories: market-
dominant and competitive. Market-dominant product price increases cannot exceed the
increase in the Consumer Price Index (CPI) and apply to each class of mail. The price
increase for the category as a whole must not exceed the increase in the CPI. For
competitive products, the Postal Regulatory Commission (PRC) has set rules for a
pricing floor that must cover the product’s costs and a required contribution to
institutional costs.8 The Postal Service will have the flexibility to change pricing on
competitive products as it wishes, consistent with the PRC rules, as long as it publishes
the price in the Federal Register at least 30 days before the effective date.

The Postal Act of 2006 requires the Postal Service to submit annual reports to the PRC
regarding its costs, revenue, rates, and quality of service. The act also requires the OIG
to audit regularly those data collection systems and procedures the Postal Service uses
to collect such information and to submit these reports to the Postal Service and the
PRC. This audit report is not the report called for under the act. Although the OIG will
issue reports on an ongoing basis for the audits required under the act, the purpose of
this report is to support the audit of the Postal Service’s financial statements.

ODIS-RPW is the primary probability sampling system that estimates revenue, volume
flow, weight, and performance measurement. The Postal Service uses data from tests
to develop new rates, assist in budget preparation, conduct management studies, and
support management decisions concerning mailflow and service performance in
transportation and operations. The ODIS-RPW test requires data collectors to select
systematically mailpieces using a random start for all mail available on the randomly
selected day. Data collectors record various mailpiece characteristics, such as
revenue, weight, shape, indicia, barcode, postmark time, and origin and mail class.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the Postal Service conducted
statistical ODIS-RPW tests to collect cost, revenue, and volume data in accordance with
established policies and procedures.

To achieve our objective, we observed 52 selected data collectors perform 63
judgmentally selected ODIS-RPW tests in 13 judgmentally selected districts.9 We
interviewed the data collectors performing the selected tests and reviewed the reports of
each test district the Statistical Programs managers provided.



8
    Institutional costs are infrastructure and administrative costs.
9
    We selected districts in which we had not observed tests within the last 3 years.




                                                             5
Statistical Tests for Fiscal Year 2009 –                                                             FF-AR-10-015
 Cost and Revenue Analysis


We conducted this audit from November 2008 through November 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on October 15, 2009, and included
their comments where appropriate. We also issued the results of our observations’
checklists to 13 district managers.

PRIOR AUDIT COVERAGE

The OIG issued the following audit reports related to ODIS-RPW tests within the past 3
years. The reports concluded that the Postal Service generally conducted the tests in
accordance with established policies and procedures. However, we observed test
errors as described below for each report and included recommendations, as
appropriate. Management agreed with our findings and recommendations for each
report.

                                            Final
                            Report         Report
      Report Title          Number          Date                           Report Results
   Audit of Statistical   FF-AR-07-093     2/16/07    Data collectors did not always use marking slips to
   Tests for Fiscal                                   identify test mail and follow mail exit point (MEP) and
   Year 2006 – Cost                                   special instructions while conducting tests. In addition,
   and Revenue                                        data collectors did not always follow procedures for
   Analysis                                           protecting data collection equipment; data collectors had
                                                      not attended the required training before conducting
                                                      tests; and Statistical Programs managers did not
                                                      properly define MEPs.
   Audit of Statistical   FF-AR-08-084     1/30/08    Data collectors did not always identify, isolate, and
   Tests for Fiscal                                   capture mail to be tested and tag sampled mail after
   Year 2007 – Cost                                   testing to release for processing. In addition to testing
   and Revenue                                        errors, data collectors did not always follow procedures
   Analysis                                           for protecting data collection equipment and unit
                                                      management did not always ensure employees leveled
                                                      and calibrated electronic scales and did not document
                                                      calibration results.
   Audit of Statistical   FF-AR-09-024     11/24/08   Data collectors did not always follow proper random
   Tests for Fiscal                                   start and skip intervals; identify, isolate, and capture
   Year 2008 – Cost                                   mail to be tested; verify the information keyed into xxxxx
   and Revenue                                        laptop; adhere to sampling procedures; or bring required
   Analysis                                           test material to the site. In addition, data collectors did
                                                      not always follow procedures for protecting data
                                                      collection equipment.




                                                      6
Statistical Tests for Fiscal Year 2009 –                                                               FF-AR-10-015
 Cost and Revenue Analysis


                                APPENDIX B: DETAILED ANALYSIS

Test Errors

Of 63 ODIS-RPW tests observed, three types of test errors accounted for most of the
errors (25), during which data collectors incorrectly applied procedures. Specifically,
data collectors did not:

        Follow procedures to determine the appropriate random start and mailpiece
         and/or container skip intervals in four districts (12 errors). In most instances,
         data collectors stated the errors were due to an oversight. The data collectors
         attributed the other errors primarily to distractions on the workroom floor. The
         data collector must select the required mailpieces by applying the mailpiece skip
         interval through all selected mailpieces and/or containers using the container skip
         interval.10

        Verify the information keyed into the xxxxx laptop in four districts (nine errors). In
         most instances, data collectors overlooked the required action; however, two
         data collectors stated they did not fully understand the requirement for verifying
         information entered into xxxxx laptops. For example, one data collector was
         unaware of the correct bar code size and was unable to locate the instructions on
         her computer. The data collector coded several mailpieces into the wrong
         mailstream due to inattention to detail. The data collector must verify the
         information is correct when entering mailpiece into the xxxxx laptop.11

        Use marking slips to identify mail tested in three districts (four errors).12 In most
         instances, data collectors stated the errors were due to an oversight. In addition,
         in one district, one data collector stated that, because this was a small site, she
         could easily separate the designated containers from the regular mail. Data
         collectors must use marking slips to mark trays, bins, all-purpose containers, and
         all containers to be tested.13

When data collectors do not follow ODIS-RPW test procedures, there is an increased
risk of jeopardizing the Postal Service’s ability to accurately estimate revenue and mail
volume.

The following tables present a summary and the details of our observations in each
district, as well as a summary of the previously reported errors for the last 3 fiscal years.




10
   Handbook F-75, Section 3.7.2.4.
11
   Handbook F-75, Chapter 3, page 3-65.
12
   Even though data collectors did not use marking slips to tag test mail, no mail was excluded or double-counted.
13
   Handbook F-75, Chapter 3, page 3-6.




                                                          7
Statistical Tests for Fiscal Year 2009 –                                                                FF-AR-10-015
 Cost and Revenue Analysis



      Summary of FY 2009 ODIS-RPW Observations and Test Errors by District
                                                                      Number
                                             Number             Total    of
                                             of Data   Number Number Tests
                                            Collectors of Tests  of     with
                    District                Observed Observed Errors   Errors
              Greensboro                        5          6     1       1
              Northern Illinois                 3          3      0      0
              Appalachian                       5          6     12      4
              Connecticut                       6          7      5      4
              Westchester                       4          7      1      1
              Seattle                           4          6      4      2
              Alabama                           3          3      0      0
              Central Florida                   2          2     0       0
              North Florida                     2          2      0      0
              Oklahoma                          5          5      1      1
              Big Sky                           4          5      4      2
              Mid-America                       4          5      2      1
              Northland                         5          6      0      0
              Total14                           52        63     30      16
            * The districts highlighted had no reported test errors.




14
  Although the percentage of tests with errors appears high, each test contains multiple records and fields.
Therefore, the percentage of erroneous test entries is much lower than the total number of tests containing errors.




                                                           8
               Statistical Tests for Fiscal Year 2009 –                                                                                                     FF-AR-10-015
                Cost and Revenue Analysis


                                             Detail of FY 2009 ODIS-RPW Test Errors15 and Observations by District16

                                                                                                                                                Big       Mid-      Total
                                              Greensboro     Appalachian    Connecticut    Westchester     Seattle    Alabama     Oklahoma     Sky       America     Test
Test Errors/Observations                        District       District       District       District      District    District    District   District   District   Errors
ODIS-RPW
Data collector did not follow procedures
to determine appropriate random start                            X (7)                            X (1)     X (2)                              X (2)                 12*
and mailpiece/container skip intervals.
Data collectors did not verify the
                                                                 X (5)                                      X (2)                   X (1)                 X (1)       9*
information keyed into xxxxx laptop.
Data collector did not use marking slips
                                                  X (1)                         X (2)                                                                     X (1)       4*
to identify mail being tested.
Data collector did not bring the required
                                                                                X (3)                                                                                 3
test material to the site.
Data collector did not adhere to
container sub-sampling or mailpiece                                                                                                            X (1)                  1
sampling procedures.
Data collector did not properly identify,
isolate, and capture mail to be                                                                                                                X (1)                  1
sampled/ tested.
Other Observations
Data collector did not follow procedures
to protect data integrity and data                               X (1)          X (5)                                   X (3)                  X (1)                 10
collection equipment.
The manager, Statistical Programs, did
                                                                                X (2)                                                          X (1)                  3
not review MEP before testing.
Unit management did not always
ensure that scales used in conjunction
                                                                                X (1)                                                                                 1
with xxxxx were leveled and/or
calibrated.
The manager, Statistical Programs, did
not ensure data collectors were properly                                        X (1)                                                                                 1
trained before conducting tests.


               * Most frequent test error, occurring in more than 5 percent of the total tests.




               15
                    The numbers of tests with errors are in parentheses.
               16
                    Four of 13 districts observed had no reported testing errors and other observations.


                                                                                                   9
Statistical Tests for Fiscal Year 2009 –                                                                       FF-AR-10-015
 Cost and Revenue Analysis


           Summary of Test Errors and Management Issues Previously Reported
                                                                                 Number of Test Errors
                                                                                   FY      FY        FY
Description of Test Errors17                                                      2009    2008      2007
Testing Error
                ODIS-RPW – Number of Tests Observed                                 63          53        57
Data collector did not follow procedures to determine appropriate random
                                                                                    12          23         -
start and mailpiece/container skip intervals.
Data collectors did not verify the information keyed into xxxxx laptop.              9          14         2
Data collector did not use marking slips to identify mail being tested.              4           -         -
Data collector did not bring the required test material to the site.                 3           3         1
Data collector did not properly identify, isolate, and capture mail to be
                                                                                     1          15         5
sampled/tested.
Data collector did not adhere to container sub-sampling or mailpiece
                                                                                     1           8         2
sampling procedures.
Data collector did not tag sampled mail after testing to release for
                                                                                     -           -         3
processing.
Data collector did not properly measure/record sampled mailpieces.                   -           -         2
Data collector did not communicate effectively with unit personnel to
                                                                                     -           -         1
ensure test mail was identified, flagged, and isolated.
TOTAL NUMBER OF ERRORS                                                              30          63        16
                                                                                         Number of Districts
                                                                                    FY          FY        FY
Description of Management Issues18                                                 2009        2008      2007
                       Number of Districts Observed                                 13          14        13
Management Issue:
Data collector did not follow procedures to protect data integrity and data
                                                                                     4           7         3
collection equipment.
The manager, Statistical Programs, did not review MEP before testing.                2           -         -
The manager, Statistical Programs, did not ensure data collectors were
                                                                                     1           -         -
properly trained before conducting test.
Unit management did not always ensure that scales used with xxxxx were
                                                                                     1           1         1
leveled and/or calibrated.
The manager, Statistical Programs, did not document employee training.               -           1         -
Data collectors did not consistently process short-paid mail.                        -           1         -
Data collector allowed another data collector to use his xxxxx logon
                                                                                     -           -         1
identification to enter mailpiece data.
TOTAL                                                                                8          10         5




17
     The cells highlighted in gray occurred in at least 5 percent of our observations.
18
     The cells highlighted in gray are reportable repeat findings.




                                                              10
Statistical Tests for Fiscal Year 2009 –                     FF-AR-10-015
 Cost and Revenue Analysis


                         APPENDIX C: MANAGEMENT’S COMMENTS




                                           11
Statistical Tests for Fiscal Year 2009 –        FF-AR-10-015
 Cost and Revenue Analysis




                                           12
